<html>
<title> - LAND EXCHANGE BILLS</title>
<body><pre>[Senate Hearing 109-104]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-104
 
                          LAND EXCHANGE BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on


                        S. 100           S. 404

                        S. 235           H.R. 816

                        S. 741           S. 761

                        H.R. 486

                               __________

                              MAY 11, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2005
23-045 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel

                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman

CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allard, Hon. Wayne, U.S. Senator from Colorado...................    12
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Holtrip, Joel, Deputy Chief, National Forest System, U.S. Forest 
  Service, Department of Agriculture, accompanied by Greg Smith, 
  Director of Lands, U.S. Forest Service, Department of 
  Agriculture....................................................     2
Krupp, Christopher, Staff Attorney, Western Land Exchange 
  Project, Seattle, WA...........................................    20
Lonnie, Thomas P., Assistant Director, Bureau of Land Management, 
  Department of the Interior.....................................     7
Salazar, Hon. Ken, U.S. Senator from Colorado....................    11

                                APPENDIX

Responses to additional questions................................    21


                          LAND EXCHANGE BILLS

                              ----------                              


                        WEDNESDAY, MAY 11, 2005

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:12 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. The Subcommittee on Public Lands and Forests 
will be in order. My apologies for running a little late. I 
think we all got slightly dislocated for a few moments during 
the noon hour, but we're back on track.
    Good afternoon to all of you. I want to welcome all of you 
to this legislative hearing: Joel Holtrip, Deputy Chief for the 
National Forest Service System, Tom Lonnie, BLM Assistant 
Director, Minerals, Realty, and Resource Protection. It's nice 
to see both of you.
    Joel, I want to congratulate you on your recent promotion. 
I'm sure that we'll be spending more quality time together now 
that you lead that portion of the Forest Service that this 
committee has responsibility for.
    Today, we are considering the following legislative 
proposals: S. 100, to authorize the exchange of certain land in 
the State of Colorado; S. 235 and H.R. 816, to direct the 
Secretary of Agriculture to sell certain parcels of Federal 
land in Carson City and Douglas County, Nevada; S. 404, to make 
a technical correction relating to land conveyance authority by 
Public Law 108-67; S. 741, to provide for the disposal of 
certain Forest Service administrative sites in the State of 
Oregon, and for other purposes; S. 761 to rename the Snake 
River Birds of Prey National Conservation Area in the State of 
Idaho as the Morley Nelson Snake River Birds of Prey National 
Conservation Area in honor of the late Morley Nelson, an 
international authority on birds of prey who was instrumental 
in the establishment of the National Conservation Area, and for 
other purposes; and H.R. 486, to provide a land exchange 
involving private land and BLM land in the vicinity of Holloman 
Air Force Base, New Mexico, for the purpose of removing private 
land from the required safety zone surrounding munitions 
storage bunkers at Holloman Air Force Base.
    I do want to mention S. 761, my bill to rename the Snake 
River Birds of Prey National Conservation Area to the Morley 
Nelson Snake River Birds of Prey National Conservation Area. 
Morley worked most of his life to ensure the protection of 
world-class management of this area. I believe that the area 
would not have been designated a national conservation area 
without his dedicated efforts, and I believe this Congress 
should recognize his hard work and dedication. Few were ever as 
committed to birds of prey, raptors, as was the late Morley 
Nelson.
    I know that Senators Smith and Wyden may want to speak on 
their bill, S. 741, to convey a number of administrative sites 
on several forests in Oregon, and then Senator Salazar may want 
to speak on S. 100, the Pitkin County, Colorado land exchange, 
so I'll finish up here.
    I have two thoughts about today's bills. First, this is the 
second time recently that a Member has brought forward a land 
exchange bill that should have been accomplished through the 
administrative process. But it has taken a decade of work and 
frustration before someone finally asked Congress to step in. I 
am increasingly troubled by the Federal agency's inability to 
make the administrative land exchange process work in a timely 
manner.
    Last, I continue to be concerned about land conveyances 
that develop new ways to share the excess revenues or receipts 
from the conveyances or exchanges with the States and local 
governments. I'm worried that we are developing a new set of 
laws on Federal Government revenue sharing that will treat each 
State differently. And I hope we will think about this trend 
before we change the process to the point that it becomes 
something different for every state.
    None of my colleagues are here at this moment. So with that 
recognition, let me turn to our witnesses, who are here with us 
today, and Joel, we'll start with you.

   STATEMENT OF JOEL HOLTRIP, DEPUTY CHIEF, NATIONAL FOREST 
    SYSTEM, U.S. FOREST SERVICE, DEPARTMENT OF AGRICULTURE, 
   ACCOMPANIED BY GREG SMITH, DIRECTOR OF LANDS, U.S. FOREST 
               SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrip. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to appear before you today in 
order to provide the Department's views on S. 100, Pitkin 
County Land Exchange Act, S. 235, and H.R. 816, Nevada National 
Forest Land Disposal Act; S. 404, Washoe Tribe of Nevada and 
California Land Conveyance; and S. 741, Oregon National Forest 
Administrative Site Disposal Act. I am accompanied today by 
Greg Smith, U.S. Forest Service Director of Lands.
    S. 100 would direct the Secretary of Agriculture to 
exchange 13 parcels of National Forest System lands totaling 
11.42 acres and the Secretary of the Interior to exchange one 
40-acre parcel of Bureau of Land Management Land for two 
parcels of non-Federal land, 35 acres, and 18.2 acres.
    The Departments would have no objection to the enactment of 
S. 100 if the reversionary clause in section 5(d)(1)(B) is 
modified. Interior would like the opportunity to work with the 
committee and the sponsors of the bill to ensure that the 
reversionary clause is discretionary for the Secretary of the 
Interior to avoid potential liability to the Federal 
Government.
    Also, the Departments would like the opportunity to 
finalize the map cited in the legislation to ensure the 
accuracy of the Federal parcels to be transferred.
    S. 235 and H.R. 816 would direct the Secretary of 
Agriculture to sell seven isolated parcels of National Forest 
System land in Carson City or Douglas County, Nevada, ranging 
from 2\1/2\ to 80 acres in size. Proceeds from the sales would 
be disbursed to various State and local entities and the 
Federal Government.
    The Department agrees these tracts of National Forest 
System land are difficult and inefficient to manage and 
appropriate for conveyance. The Department would not oppose the 
bill if the proceeds generated from the sale of these lands 
were used to fund critical facility maintenance and 
construction needs on National Forest System lands. We would 
like to work with the committee and the bill sponsors regarding 
the distribution and use of the proceeds generated from the 
sales of these Federal parcels.
    Public Law 108-67 directed the conveyance of approximately 
24 acres of National Forest System to the Department of the 
Interior to be held in trust for the Washoe Tribe of Nevada and 
California. The proposal in S. 404 would shift the conveyance 
described in Public Law 108-67 approximately 615 feet south 
along the Skunk Harbor shoreline adjacent to Lake Tahoe.
    The Department recognizes the tribe's interest in adjusting 
the conveyance in Public Law 108-67, but believes S. 404 will 
create additional management challenges. We would recommend 
working with the committee, the tribe, and the bill sponsors to 
ensure that the tribe's conveyance objectives are met while 
mitigating the public access issues derived from the shift in 
the conveyance.
    S. 741 would authorize the Secretary of Agriculture to sell 
or exchange under such terms as the Secretary may prescribe any 
or all right title and interest of the United States in and to 
the following 25 National Forest System lands and improvements 
located in the Rogue River, Siskiyou, Siuslaw, Umpqua, and 
Willamette National Forests in the State of Oregon.
    S. 741 would also correct an unanticipated problem 
generated when the Rogue-Umpqua Divide Wilderness was initially 
designated.
    The Department appreciates the interest and support of the 
committee and bill sponsors in helping us deal with our needs 
for facilities realignment. As the bill illustrates, the 
Department has a number of facilities and appurtenant land no 
longer needed by the agency.
    The fiscal year 2006 budget contains a proposal for 
legislation that would authorize the Secretary to sell such 
units excess to the agency's need and to utilize the proceeds 
from those sales for the acquisition, improvement, maintenance, 
and disposition of administrative sites and capital 
improvements on National Forest System lands. This authority 
would eliminate the need to pass legislation for every State or 
forest that has these needs.
    The administration will soon forward legislative language 
to Congress to accomplish these worthy goals. In this context, 
the Department could not support S. 741 without the following 
modification. Under section 2(c), the Secretary is authorized 
to convey without consideration to the State of Oregon or a 
local government for public purposes any or all right, title, 
and interest of the United States in and to any of the land 
described in subsection (a).
    The Department would recommend the lands and accompanying 
buildings be offered to the State of Oregon or a local 
government at market value, and that proceeds of the conveyance 
be used for the acquisition or construction of new facilities 
or the reconstruction of existing facilities. This approach 
would then be consistent with the administration's legislative 
proposal.
    In addition, section 329 of the Department of the Interior 
and Related Appropriations Act of 2002, as amended, established 
a pilot program authorizing the conveyance of excess Forest 
Service structures. The tracts identified in section 2(a)(17)-
(23) have been sold under this authority, and we would 
recommend removing them from the bill.
    We are supportive of making the technical correction of the 
Rogue-Umpqua Divide Wilderness as identified in S. 741.
    This concludes my statement and I would be happy to answer 
any questions that you may have.
    [The prepared statement of Mr. Holtrip follows:]
 Prepared Statement of Joel Holtrip, Deputy Chief for National Forest 
 System, Forest Service, Department of Agriculture, on S. 100, S. 404, 
                    S. 741, and S. 235 and H.R. 816
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today in order to provide the 
Department's views on S. 100--Pitkin County Land Exchange Act of 2005, 
S. 235 and H.R. 816--Nevada National Forest Land Disposal Act of 2005, 
S. 404--Washoe Tribe of Nevada and California Land Conveyance and S. 
741--Oregon National Forest Administrative Site Disposal Act. I am 
accompanied today by Greg Smith, U.S. Forest Service Director of Lands.
            s. 100--pitkin county land exchange act of 2005
    S. 100 would direct the Secretary of Agriculture to exchange 
thirteen parcels of National Forest System lands (totaling 11.42 acres) 
and the Secretary of the Interior to exchange one 40 acre parcel of 
Bureau of Land Management (BLM) land for two parcels of non-federal 
land (35 acres and 18.2 acres) if Pitkin County, Colorado offers to 
convey title to the non-federal land that is acceptable to the 
Secretary of Agriculture. The lands acquired by the Secretaries would 
then become part of the White River National Forest in Colorado. The 
federal lands would be conveyed to Pitkin County, Colorado.
    The Departments would have no objection to the enactment of S. 100 
if the reversionary clause in section 5(d)(1)(B) is modified. DOI would 
like the opportunity to work with the Committee and the sponsors of the 
bill on amendments to ensure that the reversionary clause is 
discretionary for the Secretary of the Interior to avoid potential 
liability to the Federal government. Also, the Departments would like 
the opportunity to finalize the map cited in the legislation to ensure 
the accuracy of the federal parcels to be transferred.
    The acquisition of the non-federal parcels would consolidate 
National Forest land ownership in and around the historic Ashcroft 
Townsite and on Smuggler Mountain. The non-federal parcels and 
surrounding lands are a popular sightseeing and recreation destination 
used for Nordic skiing and contain historic structures associated with 
the U.S. Army's 10th Mountain Division during World War II.
    Section 5(a)-(c) of the bill would require that the value of the 
federal and non-federal lands directed to be exchanged under S. 100 be 
equal, with values being determined by appraisal conducted in 
accordance with the Uniform Appraisal Standards for Federal Land 
Acquisitions, the Uniform Standards of Professional Appraisal Practices 
and the Forest Service appraisal instructions. The bill includes 
provisions on equalizing values, if necessary.
    Section 5(d)(1)(A) of the bill requires Pitkin County to grant to 
an entity acceptable to the Secretary of the Interior a permanent 
conservation easement. The conservation easement would provide for 
public access on the BLM parcel conveyed to the County and would limit 
future use to recreational, fish and wildlife and open space purposes 
only. However, under section 5(b)(2) of the bill, the appraiser would 
be directed not to consider the easement in appraising this parcel.
 s. 235 and h.r. 816--nevada national forest land disposal act of 2005
    For ease of discussion references to S. 235 also apply to H.R. 816, 
unless otherwise noted. S. 235 would direct the Secretary of 
Agriculture to sell seven specific parcels of National Forest System 
land in Carson City or Douglas County, Nevada ranging from 2.5 to 80 
acres in size. Proceeds from the sales would be dispersed to various 
state and local entities, and the federal government.
    Section 3(d)(1) of the bill provides that the Secretary shall ``(A) 
pay five percent to the State of Nevada for use for the general 
education program of the state; (B) pay five percent to the Carson 
Water Subconservancy District in the State; (C) deposit 25 percent in 
the fund established under Public Law 90-171 (commonly known as the 
Sisk Act; 16 U.S.C. 484a); and (D) retain and use, without further 
appropriation, the remaining funds for the purpose of expanding the 
Minden Interagency Dispatch Center in Minden, Nevada, as provided in 
paragraph (3).''
    Section 3(d)(2) of the bill provides that the amounts deposited in 
the Sisk Act Fund ``shall be available to the Secretary until expended, 
without further appropriation, for the following purposes: (A) 
Reimbursement of costs incurred by the local offices of the Forest 
Service in carrying out land sales under this section, not to exceed 10 
percent of the total proceeds of the land sales. (B) The development 
and maintenance of parks, trails, and natural areas in Carson City or 
Douglas County, (H.R. 816 also lists Washoe County, Nevada), in 
accordance with a cooperative agreement entered into with the unit of 
local government in which the park, trail or natural area is located.''
    The Department agrees these tracts of National Forest System land 
are difficult and inefficient to manage, and appropriate for 
conveyance. However, the Administration is concerned that the proposed 
use of proceeds from the sale of real property--a conversion of a 
capitol asset owned by the Federal taxpayer--would support ongoing 
operational expenses, including those of non-federal entities. The 
Department would not oppose the bill if the proceeds generated from the 
sale of these lands were used to fund critical facility maintenance and 
construction needs on National Forest System lands. Considering the 
nature of the lands proposed for sale, we think the use of these sale 
proceeds for funding facility projects is appropriate and would further 
the Forest Service's facilities realignment objectives. The President's 
FY 2006 Budget includes a more fiscally prudent proposal which would 
provide the Secretary with the authority to sell administrative sites, 
to provide more efficient real estate management of lands and 
facilities throughout the entire National Forest System.
    We would like to work with the committee and the bill's sponsors on 
amendments regarding the distribution and use of the proceeds generated 
from the sales of these Federal parcels.
     s. 404--washoe tribe of nevada and california land conveyance
    P.L. 108-67 directed the conveyance of approximately 24 acres of 
NFS land to the Department of the Interior to be held in trust for the 
Washoe Tribe of Nevada and California. The proposal in S. 404 would 
shift the conveyance described in P.L. 108-67 approximately 615 feet 
south along the Skunk Harbor shoreline adjacent to Lake Tahoe. The 
current conveyance includes only rocky shoreline. S. 404 would include 
approximately 300 feet of sandy beach. The conveyance of 80% of the 
public's accessible sandy beach area in Skunk Harbor will limit public 
access to the remaining 90 feet of sandy beach located near the 
historic Newhall House. This will limit the approximately 6,000 people 
who use Skunk Harbor annually to only 90 feet of public beach. The 
increased usage of the beach will subsequently increase the management 
needs for the beach area and the adjacent Newhall House.
    The Department recognizes the Tribe's interest in adjusting the 
conveyance in P.L. 108-67 but believes S. 404 will create additional 
management challenges. We would recommend working with the Committee, 
the Tribe and the bill sponsors on amendments to ensure that the 
Tribe's conveyance objectives are met while mitigating the public 
access issues.
    The boundary description in S. 404 legislation is not easily 
identified on the ground. In order to avoid long term survey and land 
ownership issues, we recommend that the Bureau of Land Management 
through the Bureau of Indian Affairs or a private Licensed Surveyor 
provide a legal description and Record of Survey once the boundary has 
been determined. The Department recommends making changes to the 
boundary tied to identifiably distinct features on the ground (e.g. 
roads). These boundary changes would insure a more effective management 
of the National Forest System lands adjacent to the lands being 
conveyed to the Tribe.
    It is important to note that Forest Service personnel, using 
geographic information system techniques, estimated the adjusted 
boundary described in S. 404 which resulted in approximately 21.6 acres 
being conveyed rather than the 24.3 acres as mentioned in S. 404 and 
conveyed under P.L. 108-67. This is displayed on the map generated for 
the hearing today.
    s. 741--oregon national forest administrative site disposal act
    S. 741 would authorize the Secretary of Agriculture to sell or 
exchange, under such terms as the Secretary may prescribe, any or all 
right, title and interest of the United States in and to the following 
25 National Forest System lands and improvements located in the Rogue 
River, Siskiyou, Siuslaw, Umpqua, and Willamette National Forests in 
the State of Oregon. S. 741 would also correct an unanticipated problem 
generated when the Rogue-Umpqua Divide Wilderness was initially 
designated.
    The specific tracts listed in S. 741 are as follows:
The Rogue River-Siskiyou National Forest
    (1) The Star Gulch Complex consisting of 2.25 acres and six 
buildings;
    (2) The Butte Falls Housing Complex consisting of 2.5 acres and 
four buildings;
    (3) The Old Agnes Guard Station consisting of 2.5 acres and six 
buildings;
    (4) The Chetco Ranger District Housing complex consisting of 1.5 
acres and 5 buildings;
    (5) The Gold Beach House consisting of 0.25 acres and one building;
    (6) The Powers South Work Center consisting of 1.59 acres and eight 
buildings;
The Siuslaw National Forest
    (7) The Gardiner Administrative Site consisting of 3.5 acres and 
four buildings;
    (8) The Waldport Administrative Site consisting of 6.65 acres and 
four buildings;
The Umpqua National Forest
    (9) The Roseburg Service Center Administrative Site consisting of 
2.92 acres and five buildings;
    (10) The Roseburg Powder House Administrative Site consisting of 
1.34 acres;
    (11) Brown Street Residence Administrative Site consisting of 2.35 
acres and three buildings;
The Willamette National Forest
    (12) The Blue River Administrative Site consisting of 31.91 acres 
and ten buildings;
    (13) The Hemlock House consisting of 6 acres and two buildings;
    (14) The Flat Creek Administrative Site consisting of 45 acres and 
accompanying buildings;
    (15) The Rigdon Administrative Site consisting of 15 acres and 
accompanying buildings;
    (16) The Cascadia Administrative Site consisting of 15 acres and 
two buildings;
    (17) The Sweet Home House consisting of 0.07 acres and one 
building;
    (18) The Sweet Home House consisting of 1.4 acres and one building;
    (19) The Sweet Home House consisting of 0.21 acres and one 
building;
    (20) The Mill City House consisting of 0.30 acres and one building;
    (21) The Mill City House consisting of 0.30 acres and one building;
    (22) The Mill City House consisting of 0.30 acres and one building;
    (23) The Mill City House consisting of 0.33 acres and one building;
    (24) The Willamette National Forest Administrative Site consisting 
of 2.24 acres and five buildings; and
    (25) The West Fir residences consisting of 20 acres.

    The Department appreciates the interest and support of the 
Committee and bill sponsors in helping us deal with our needs for 
facilities realignment.
    S. 741 authorizes the sale of the above mentioned tracts through 
auction or bid and provides for the use of brokers to facilitate the 
sales. In addition any appraisals deemed necessary by the Secretary 
shall conform to the Uniform Appraisal Standards for Federal Land 
Acquisitions. Proceeds derived from the sales will be deposited in the 
fund established under Public Law 90-171 (commonly know as the Sisk 
Act; 16 U.S.C. 484a). These funds would be made available to the 
Secretary, without further appropriation, to be used for the 
acquisition of lands and interest in lands in the specified National 
Forests, the payment or reimbursement of costs incurred by the Forest 
Service in processing the conveyance and for the acquisition or 
construction of new facilities or the rehabilitation of existing Forest 
Service facilities.
    As the bill illustrates, the Department has a number of facilities 
and appurtenant land no longer needed by the agency. The FY 2006 Budget 
contains a proposal for legislation that would authorize the Secretary 
to sell such units excess to the agency's need and to utilize the 
proceeds from those sales for the acquisition, improvement, 
maintenance, and disposition of administrative sites and capitol 
improvements on National Forest System lands. Funds deposited under 
this authority would address backlogs and administrative consolidations 
while improving efficiencies through the reconstruction of functionally 
obsolete facilities or construction of new facilities. This authority 
would eliminate the need to pass legislation for every State or Forest 
that has these needs. The Administration will forward legislative 
language to Congress within the next several weeks to accomplish these 
worthy goals. In this context, the Department could not support S. 741 
without the following modification:
    Under Section 2(c) the Secretary is authorized to convey, without 
consideration, to the State of Oregon or a local government for public 
purposes any or all right, title and interest of the United States in 
and to any of the land described in subsection (a). The Department 
would recommend the lands and accompanying buildings be offered to the 
State of Oregon or a local government at market value and that proceeds 
of the conveyance be used for the acquisition or construction of new 
facilities or the reconstruction of existing facilities. This approach 
would then be consistent with the Administration's legislative 
proposal.
    In addition, Section 329 of the Department of the Interior and 
Related Appropriations Act of 2002 (Public Law 107-63), as amended, 
established a pilot program authorizing the conveyance of excess Forest 
Service structures. The tracts identified in section 2(a)(17) through 
(23) have been sold under this authority. We would recommend removing 
them from the bill.
    S. 741 would make a technical correction of the Rogue Umpqua Divide 
Wilderness by slightly modifying the boundary so that (1) a road is 
outside the wilderness by removing approximately 1.3 acres from the 
wilderness, and (2) by adding approximately 1.3 acres of land with 
wilderness character to the wilderness to offset the removal.
    The original legal description, prepared in accordance with the map 
of record at the time of designation, inadvertently resulted in a short 
segment of Forest Service Road No. 2947-300 being within the Rogue 
Umpqua Divide Wilderness by approximately 20 feet. This has resulted in 
the closure of the road which is necessary to access National Forest 
System land beyond the area where the road is within the wilderness 
area. The small portion of land cut off by the road, which is 
designated as wilderness, clearly has no wilderness character.
    This concludes my statement, I would be happy to answer any 
questions that you may have.

    Senator Craig. Joel, thank you very much.
    Now, Tom, we'll turn to you for any additional comments you 
will make on the relevant legislation.

 STATEMENT OF THOMAS P. LONNIE, ASSISTANT DIRECTOR, MINERALS, 
  REALTY AND RESOURCE PROTECTION, BUREAU OF LAND MANAGEMENT, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Lonnie. Thank you for the opportunity to present the 
views of the Department of the Interior on H.R. 486 legislation 
providing for the exchange of public and private land in the 
vicinity of Holloman Air Force Base in New Mexico.
    In previous testimony on similar legislation, H.R. 4808, 
given in the 108th Congress, we raised significant concerns, 
several of which have been addressed in H.R. 486. One concern 
previously identified in our testimony on H.R. 4808 remains 
outstanding, and we have identified new concerns described more 
fully in this testimony. The Department has concerns with H.R. 
486 and could support the bill if our concerns are addressed.
    As an initial matter, the Department views this as a unique 
situation using Bureau of Land Management lands and the 
provisions of the Federal Land Policy and Management Act of 
1976 to resolve this issue involving the military's need for 
private lands in Otero County, New Mexico. Given this, we do 
not expect this matter to serve as precedent for future BLM 
land exchanges.
    Approximately 241 acres of Mesa Verde Ranch, owned by 
Randall, Jeffrey, and Timothy Rabon are situated within the 
explosive safety zone surrounding a munitions storage area at 
Holloman Air Force Base. The safety zone for the munitions 
storage area was previously included in easements immediately 
adjacent to the eastern boundary of the base. But several of 
the safety zone easements have terminated.
    To secure the safety zone around the munitions storage 
area, Holloman Air Force Base considered acquiring the Rabons' 
241 acres through acquisition, land trade, conservation 
easement, or condemnation. Acting on behalf of Holloman Air 
Force Base, the U.S. Army Corps of Engineers offered to buy the 
241 acres from the Rabons. However, the parties failed to reach 
agreement on a purchase price.
    On December 29, 2003, the Rabons submitted a land exchange 
proposal to the BLM under which they would convey the 241 acres 
to Holloman Air Force Base in exchange for BLM conveying to 
them certain inholdings, parcels of BLM-managed public land 
located within the Rabons' ranch. On July 9, 2004, H.R. 4808 
was introduced, which directed the exchange of the Rabons' 241 
acres for parcels of BLM-managed public land located within the 
Mesa Verde Ranch, the same parcels identified by the Rabons' 
proposal to the BLM in December 29, 2003.
    At a September 14, 2004 hearing of the House Resources 
Subcommittee on National Parks, Recreation, and Public Lands, 
the BLM testified that it had significant concerns with H.R. 
4808. The legislation was not enacted. In the meantime, the 
military still had been unable to reach agreement with the 
Rabons on a price at which Holloman Air Force Base could 
purchase the land.
    Under H.R. 486, the Rabons would convey to the United 
States three parcels of private land totaling approximately 241 
acres contiguous to Holloman Air Force Base and located within 
the required safety zone for the munitions storage bunkers. 
H.R. 486 directs the Secretary of the Interior to convey to the 
Rabons approximately 320 acres of public domain land currently 
managed by the BLM in the State of New Mexico. As distinguished 
from the BLM parcels identified in H.R. 4808 in the last 
Congress, the 320-acre parcel of public land, which the 
Secretary is directed to convey to the Rabons under H.R. 486, 
is not located within the boundaries of the Mesa Verde Ranch. 
Rather, it is located near the southern portion of the city of 
Alamogordo, New Mexico, and has been identified for retention 
under BLM's land use planning process.
    H.R. 486 directs the Secretary to carry out the exchange in 
a manner provided in section 206 of FLPMA, but waives the 
provision in section 206(b), which limits the amount of cash 
that may be paid to equalize exchange values of the Federal 
land conveyed.
    One provision of H.R. 486 remains unchanged from H.R. 4808. 
We testified as to our concern with this provision on December 
14, 2004, specifically as in H.R. 4808, H.R. 486 requires the 
Secretary of the Interior to assume administrative jurisdiction 
over the 241-acre parcels. As stated in our testimony, this 
acquired land should not be placed under the administrative 
jurisdiction of this Secretary. The Federal Government's sole 
purpose in acquiring this is for the protection of military 
interest at Holloman. The acquired land should therefore be 
withdrawn to the Secretary of the Army under public land order 
833.
    H.R. 486 directs the Secretary to carry out the exchange in 
a manner provided in 206 of FLPMA. Under 206, lands proposed 
for exchange for the U.S. Government must be of equal value 
with lands conveyed. If the lands proposed for exchange are not 
equal values, subsection (b) of section 206 provides for a cash 
payment by either the Government or the private property owner 
as appropriate in order to equalize values provided the payment 
does not exceed 25 percent of the total value of the lands 
transferred out of Federal ownership.
    H.R. 486 waives the 25 percent limitation in section 206(b) 
of FLPMA. The effect of this provision in H.R. 486 is that the 
dollar amount of any cash payment to equalize the values in 
this exchange would not be limited. This is inconsistent with 
section 206 of FLPMA.
    In addition, generally an exchange proponent is responsible 
for paying appraisal costs. If the legislation requires the 
Government to pay this cost, funds should be provided for this 
purpose. We would like to work with the committee to address 
these concerns.
    Thank you again for the opportunity to testify. I would be 
glad to answer any questions.
    [The prepared statement of Mr. Lonnie follows:]
 Prepared Statement of Thomas P. Lonnie, Assistant Director, Minerals, 
 Realty and Resource Protection, Bureau of Land Management, Department 
                      of the Interior, on H.R. 486
    Thank you for the opportunity to present the views of the U.S. 
Department of the Interior on H.R. 486, legislation providing for an 
exchange of public and private land in the vicinity of Holloman Air 
Force Base\1\ in New Mexico. In previous testimony on similar 
legislation (H.R. 4808) given in the 108th Congress, we raised 
significant concerns, several of which have been addressed in H.R. 486. 
One concern previously identified in our testimony on H. R. 4808 
remains outstanding, and we have identified new concerns described more 
fully in this testimony. The Department has significant concerns with 
H.R. 486 and could support the bill if our concerns are addressed.
---------------------------------------------------------------------------
    \1\ Holloman AFB is in south-central New Mexico, near the town of 
Alamogordo in Otero County. Operated by the United States Air Force, 
the installation covers nearly 60,000 acres. It is located on lands 
withdrawn from the public domain for military purposes under Public 
Land Order 833.
---------------------------------------------------------------------------
                               background
    As an initial matter, the Department views this as a unique 
situation using Bureau of Land Management (BLM) lands and the 
provisions of the Federal Land Policy and Management Act (FLPMA) of 
1976 (P.L. 94-579) to resolve this issue involving the military's need 
for private lands in Otero County, New Mexico. Given this, we do not 
expect this matter to serve as precedent for future BLM land exchanges.
    Approximately 241 acres of the Mesa Verde Ranch, owned by Randall, 
Jeffrey, and Timothy Rabon, are situated within the explosive safety 
zone surrounding a Munitions Storage Area at Holloman AFB. The safety 
zone for the Munitions Storage Area was previously included in 
easements immediately adjacent to the eastern boundary of the base, but 
several of the safety zone easements have terminated. To secure the 
safety zone around the Munitions Storage Area, Holloman AFB considered 
acquiring the Rabons' 241 acres through acquisition, land trade, 
conservation easement, or condemnation. Acting on behalf of Holloman 
AFB, the U.S. Army Corps of Engineers offered to buy the 241 acres from 
the Rabons. However, the parties failed to reach agreement on a 
purchase price.
    On December 29, 2003, the Rabons submitted a land exchange proposal 
to the BLM under which they would convey the 241 acres to Holloman AFB 
in exchange for BLM conveying to them certain inholdings--parcels of 
BLM-managed public land located within the Rabons' ranch. On July 9, 
2004, H.R. 4808 was introduced, which directed the exchange of the 
Rabons' 241 acres for parcels of BLM-managed public land located within 
the Mesa Verde Ranch (the same parcels identified in the Rabons' 
proposal to the BLM of December 29, 2003). At a September 14, 2004, 
hearing of the House Resources Subcommittee on National Parks, 
Recreation, and Public Lands, the BLM testified that it had significant 
concerns with H.R. 4808. The legislation was not enacted. In the 
meantime, the military still has been unable to reach agreement with 
the Rabons on a price at which Holloman AFB could purchase the land.
                                h.r. 486
    Under H.R. 486, the Rabons would convey to the United States three 
parcels of private land, totaling approximately 241 acres, contiguous 
to Holloman AFB and located within the required safety zone surrounding 
munitions storage bunkers at the base. H.R. 486 directs the Secretary 
of the Interior (Secretary) to convey to the Rabons approximately 320 
acres of public domain land currently managed by the BLM in the state 
of New Mexico. As distinguished from the BLM parcels identified in H.R. 
4808 in the last Congress, the 320-acre parcel of public land which the 
Secretary is directed to convey to the Rabons under H.R. 486 is not 
located within the boundaries of the Mesa Verde Ranch; rather, it is 
located near the southern portion of the city of Alamogordo, New 
Mexico, and has been identified for retention under the BLM's land use 
planning process.
    H.R. 486 directs the Secretary to carry out the exchange in the 
manner provided in section 206 [``Exchanges''] of the Federal Land 
Policy and Management Act (FLPMA) of 1976 (P.L. 94-579), but waives the 
provision in section 206(b) which limits the amount of cash that may be 
paid to equalize exchange values of the Federal land conveyed.
    We commend the bill's sponsor for addressing in H.R. 486 several of 
the concerns we previously raised in testimony on H.R. 4808. 
Specifically:

  <bullet> In response to our concern that H.R. 4808 should specify 
        which acres of public land and privately-owned lands are 
        intended for the exchange, H.R. 486 provides a precise 
        description of the lands to be involved in the exchange.
  <bullet> We asked for the opportunity to develop a map to portray 
        accurately the exchange proposed in H.R. 4808, and to include 
        reference to the map in the legislation. Subsequent to the 
        September 14, 2004, hearing on H.R. 4808, the Rabons selected 
        different parcels of public land they wished to acquire. The 
        BLM developed a map, which is referenced in section 1(a) of 
        H.R. 486. We note that the bill should be amended to reflect 
        the name of the map as ``Alamogordo Rabon Exchange''.
  <bullet> We objected to the provision in H.R. 4808 that would have 
        deducted the Rabons' previous expenses (incurred in their 
        response to the military's efforts to purchase the 241 acres) 
        from any cash equalization payment due to the Federal 
        government as contrary to the public interest. This provision 
        does not appear in H.R. 486.
  <bullet> In response to our assertion that it was important that 
        lands involved in the proposed exchange be of equal value based 
        upon appraisals prepared in accordance with the Uniform 
        Appraisal Standards for Federal Land Acquisition, H.R. 486 
        directs the Secretary to carry out the exchange in the manner 
        provided in section 206 of FLPMA. This will assure that the 
        appraisals will comply with Federal appraisal standards and the 
        U.S. Department of Justice Uniform Standards for Federal Land 
        Acquisition.
                         concerns with h.r. 486
    One provision in H.R. 486 remains unchanged from H.R. 4808. We 
testified as to our concern with this provision at the September 14, 
2004, hearing on H.R. 4808. We continue to have concerns with this 
provision.
    Specifically, as in H.R. 4808, H.R. 486 requires the Secretary of 
the Interior to assume administrative jurisdiction over the 241-acre 
parcel to be conveyed by the Rabons. As stated in our testimony on H.R. 
4808, this acquired land should not be placed under the administrative 
jurisdiction of the Secretary of the Interior. The Federal government's 
sole purpose in acquiring this 241-acre parcel is for the protection of 
military interests at Holloman AFB. The acquired land should therefore 
be withdrawn to the Secretary of the Army for that purpose and included 
within existing Public Land Order 833.
    H.R. 486 directs the Secretary to carry out the land exchange in 
the manner provided in section 206 of FLPMA. Under section 206, lands 
proposed for exchange with the United States government must be of 
equal value with the lands to be conveyed out of Federal ownership. If 
lands proposed for an exchange are not of equal value, subsection (b) 
of section 206 provides for a cash payment to be made by either the 
government or the private-property owner, as appropriate, in order to 
equalize the values of the lands involved in the exchange, provided the 
payment amount does not exceed 25 percent of the total value of the 
lands transferred out of Federal ownership.
    H.R. 486 [section 1(d)(1)] waives the 25 percent limitation in 
section 206(b) of FLPMA. The effect of this provision in H.R. 486 is 
that the dollar amount of any cash payment to equalize the values in 
this exchange would not be limited. This is inconsistent with the 
section 206 FLPMA process. In addition, generally an exchange proponent 
is responsible for paying appraisal costs. If the legislation requires 
the government to pay this cost, funds should be provided for this 
purpose.
    We would like to work with the Committee to address these concerns.
    Thank you again for the opportunity to testify on H.R. 486. I would 
be glad to answer any questions.

    Senator Craig. Tom, thank you very much for that testimony. 
I'm going to turn to my colleague, Senator Salazar, for any 
opening comments he might like to make, and then you may have 
questions you would want to ask of these gentlemen.
    A vote has just started. We can either do tandem here, I 
can run and vote, you can ask questions, I can get back and you 
can go, and we'll keep the committee going. How's that?
    Senator Salazar. That would be just fine.
    Senator Craig. All right. You're in charge.
    Senator Salazar. Okay. You'll be back, though?
    Senator Craig. I'll be back. If you get nervous, just 
recess and I'll be right back.
    Senator Salazar. You're going to vote while you're gone?
    [Laughter.]

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar [presiding]. It's good being chairman once 
in a while. Let me first of all just say welcome to all of you, 
and I appreciate the testimony on these very important pieces 
of legislation. For me, I have a particular interest in S. 100 
because it involves Aspen and Pitkin County, and it's been a 
project that has been near and dear to the hearts of a lot of 
people who have worked on this project now for over 10 years. 
And so I think the effort that has finally come together is one 
which has a tremendous amount of support including the support 
of Senator Allard and myself. And on behalf of Senator Allard 
and myself, I would like to enter our opening statements into 
the record, and since I'm the chairman I'll say without 
objection and they will be entered into the record.
    [The prepared statements of Senators Salazar and Allard 
follow:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Mr. Chairman, thank you for holding this hearing today on S. 100, 
which Senator Allard and I have introduced to resolve a longstanding 
land exchange issue near Aspen, Colorado. I note that both Senator Ben 
Nighthorse Campbell and Congressman Scott McInnis introduced similar 
bills in the House and Senate last fall, but there was not enough time 
to process them. So, I am very pleased we are getting an early start 
this year.
    Mr. Chairman, S. 100 has its roots in efforts which the Forest 
Service, the Ryan family and various non-profit groups initiated in the 
early 1980s to acquire the Ryan family's private lands in and near the 
well-known and historic Ashcroft townsite, some ten miles south of 
Aspen. The Ashcroft area is extremely rich in recreational, historic 
and scenic values . . . for example, it was the first place the famous 
10th Mountain Division trained before Camp Hale was built . . . and 
both the Ryan family and the Forest Service agreed that it should be 
consolidated into public ownership. Accordingly, through a series of 
land exchanges, and a donation by the Ryan family, all but a 35 acre 
tract, currently known as the ``Ryan Property'', is now in Forest 
Service hands.
    Since the early 1990s, when the family indicated they could not 
donate the 35 acre piece to the United States, the Forest Service, 
Pitkin County, Aspen Valley Land Trust (AVLT) and numerous others have 
attempted to secure either purchase money, or a land exchange, to 
accomplish the task. But it was to no avail. So, in February of 2000 . 
. . more than 5 years ago . . . when it appeared the Ryan Property was 
in danger of imminent sale, and possible development, the Supervisor of 
the White River National Forest asked Pitkin County and the Land Trust 
to temporarily purchase the property, and to hold it until a land 
exchange was completed. The County and AVLT agreed, and bought the 
property for $3.2 million the very same month.
    Since the County and AVLT purchased the parcel in 2000, the 
promised land exchange has languished--largely because the parcels the 
Forest Service identified for exchange to the County had title or other 
problems which thwarted their disposal. There is also a BLM parcel 
included in the exchange, and that type of three-way transaction 
requires our approval.
    Accordingly, Mr. Chairman, S. 100 directs an exchange of lands 
between the County, Forest Service and BLM. Because the Forest Service 
has had difficulty clearing title to its own land, S. 100 takes the 
somewhat unusual step of placing the title cleanup responsibility in 
the County's hands. The County has generously agreed to do that. Our 
bill also insures that the United States will absolutely receive full 
value for all lands it conveys and, most likely, that some of the value 
of the Ryan parcel will end up being donated to the Forest Service. 
Lastly, it requires that the County place a permanent conservation 
easement on the BLM land it acquires, but specifies that the land be 
appraised without that encumbrance. So, I do not see how we could craft 
a better deal for the taxpayers.
    Finally, I note that S. 100 has overwhelming public support. Not 
only is it endorsed by Pitkin County, but also by the City of Aspen, 
Aspen Skiing Company, Aspen Center for Environmental Studies, Aspen 
Historical Society, the Conservation Fund, Crystal Valley Environmental 
Protection Association, Crystal-Maroon Caucus, the Friends of Ashcroft, 
Roaring Fork Conservancy, Sierra Club, Wilderness Workshop and the 
Wilderness Society. Indeed, in my many years of land conservation work 
in Colorado, it is hard to remember a project that has more consensus. 
I have several letters of support from the groups I just mentioned that 
I would like to enter into the record.*
---------------------------------------------------------------------------
    * The letters have been retained in subcommittee files.
---------------------------------------------------------------------------
    Again, Mr. Chairman, thank you for holding a hearing on this 
important bill. I trust that we will be able to move it quickly through 
the process so that the Ryan Property can finally be placed in public 
hands, and so that Pitkin County and the Aspen Valley Land Trust can 
recover the capital they currently have tied up in the Ryan Property 
for use on other important open space acquisitions.
                                 ______
                                 
  Prepared Statement of Hon. Wayne Allard, U.S. Senator From Colorado
    Thank you, Mr. Chairman, for allowing me the opportunity to share 
my comments here today and for your leadership. You have been a strong 
supporter of public lands and I commend you for your efforts as we 
strive to find a balance between public and private ownership of our 
nations land. Not only do you and I share a border, but we share a 
philosophy--that the best way to govern is through sound policy. Today, 
this committee will review a bill which I view as very sound policy; S. 
100, the Pitkin County Land Exchange Act of 2005.
    The Pitkin County Land Exchange Act of 2005, which I sponsored 
along with my colleague Senator Salazar, would facilitate a multiparty 
land exchange between the Bureau of Land Management, the Forest Service 
and Pitkin County. This is a good common sense bill. The federal 
government has land that Pitkin County wants and Pitkin County has land 
that the government wants. This legislation would ease federal land 
management strains by exchanging outlying federal parcels for land 
adjacent to current federal land. The bill also benefits Pitkin County 
by providing the county with land they desire. This bill enjoys much 
local support and presents a win-win situation for all.
    Mr. Chairman, it is my hope that we are able to reach agreement on 
this bill and pass it favorably out of committee so that we can 
preserve one of the most spectacularly beautiful pieces of land in this 
great nation. I thank you and the Committee for your time and 
consideration.

    Senator Salazar. Let me just say that when you think about 
the number of organizations that came together to try to work 
on S. 100, it is incredible because it's the kind of example 
that we ought to be seeing all across the West. We had the 
Aspen Valley Land Trust, who's worked on this now for about a 
decade, the Aspen Center for Environmental Studies, the Aspen 
Historical Society, Aspen Skiing Company, the Ashcroft Ski 
Touring Organization, the Conservation Fund, the city of Aspen, 
Crystal River Caucus, Crystal Maroon Caucus, the Crystal River 
Environmental Protection Association, Friends of Ashcroft, 
Pitkin County Board of County Commissioners, the Roaring Fork 
Conservancy, the Sierra Club from the Roaring Fork area, 
Wilderness Workshop, and the Wilderness Society.
    And so I believe that S. 100 has extensive support on the 
part of everyone who knows the project. I am very supportive of 
the project and look forward to your support on the 
legislation.
    I have one question for you, Mr. Holtrip, and that was in 
the comments from the agency. You said you were supportive but 
there was some concern that I think you had on the reversionary 
provision that you wanted included in the legislation. I'd like 
you to comment on that if you would.
    Mr. Holtrip. Yes, that's correct. The request is that the 
reversionary clause be clarified that it is discretionary for 
the Department of the Interior in order to provide for any 
concerns on down the road in terms of any liability for the 
Federal Government.
    Senator Salazar. Okay. And you--I expect you'll work with 
your staffs to try to address the concerns that you've raised 
with respect to that clause?
    Mr. Holtrip. Yes. And we have been working with the 
Department of the Interior on that, and Mr. Lonnie may have 
some additional thoughts on that.
    Mr. Lonnie. Yes, we'd be happy to work with the staff on 
that, Senator.
    Senator Salazar. Well, thank you very much. Let me ask you 
since I have you captive here and since the other pieces of 
legislation here are in States other than Colorado, are there 
other exchanges, Mr. Holtrip, that you are aware of within 
Colorado that are pending that you would like to take the 
opportunity to brief me on?
    Mr. Holtrip. I'm going to turn to Mr. Smith, who is our 
Director of Lands, if he's aware of any.
    Mr. Smith. Not at this time. I think that we have been 
working closely with all the States in the land exchanges that 
we have in Colorado, so I don't think at this time we have 
anything pending.
    Senator Salazar. Let me ask both of you this general 
question, and that is in the whole area of land exchanges, we 
have done a lot in terms of land exchanges, I think, over the 
last several decades, especially in Colorado, and I would 
assume that's the case in many States across the West and 
perhaps across the country. This experience that we had here 
with this tract in Pitkin County ended up taking us about 10 
years to finally get done.
    Are there any general observations or recommendations that 
you might want to make to me as a member of this committee on 
how we might be able to make land exchanges go forward in a 
smoother and more quicker, perhaps more efficient manner? Or do 
we have a system that currently is working in exactly the way 
that it should be working?
    Mr. Holtrip. Well, I think that there are--there are some 
concerns as to the amount of time it takes for us to go through 
some of our administrative land exchange processes. It was just 
a few weeks ago, since I'm fairly new to the position I'm in, I 
was talking to Greg about that very question, and I asked, how 
long do our administrative land exchange processes normally 
take? And I'm not sure that there's a good answer that refers 
to a normal process.
    I think there are many exchanges that run through smoothly 
and happen in a fairly short period of time, probably measured 
in a few years. And then some of them are more complicated with 
more issues around different interests wanting to make sure 
that they're accomplishing different things that sometimes take 
a considerably longer period of time.
    It may be that the ones that rise to the level of us at the 
national level or rise to the level of being dealt with in the 
committee are some of the more complicated ones. Again, I think 
that there are some things that we can take a look at, and to 
determine our administrative land exchanges taking longer than 
they ought to, and what are some of the things that we can do 
to fix that.
    Senator Salazar. In my own sense of having worked on some 
of these land exchanges in my prior role in Colorado is that if 
you have a community consensus, they're much easier to get 
done. And often what ends up happening is you have one 
stakeholder or one group that isn't on board. And so that 
requires the process sometimes to drag on for a longer period 
of time than it should.
    But if you would think about and maybe provide some 
information to me, I would appreciate it, with respect to 
whether or not in a typical--maybe it's not the typical 
situation--but in a situation where you do have a community 
consensus for a particular exchange, so it's a non-
controversial exchange, is there anything that we could do 
either administratively through regulation of our public land 
agencies, or else through a change in the law, to try to 
expedite that process, I would very much appreciate that.
    Mr. Holtrip. We'd be happy to look into that and provide 
you some additional information such as that. And again, I 
would--I do concur that when a community has come together, as 
obviously Pitkin County and those folks around Aspen have on 
this particular exchange, that certainly does make the process 
easier and appreciate the amount of support for this exchange 
from the community and the wide array of interest groups, as 
you indicated in your statement.
    Even in that case, there are situations in which Pitkin 
County is looking for open space. And there were some aspects 
of the National Forest System land that was being looked at, 
that took some time as the county was trying to make sure that 
they were able to meet their open space requirements in looking 
at the National Forest System parcels. It was a couple of years 
ago when the county determined that perhaps the Federal parcel 
that would best meet their needs was the Bureau of Land 
Management parcel, the 40-acre parcel. It was at that time that 
it became clear that our administrative process would not be 
sufficient, since there's two different agencies involved at 
that point.
    Senator Salazar. Okay. Let me just find out what the timing 
is on the vote. I think Chairman Craig is going to come back 
and ask just a few questions. And so just to make sure that I 
don't miss the vote, if you will just hang with us for a few 
minutes. We're going to have the committee go into recess, but 
I assume that Chairman Craig will be right back and call the 
meeting back to order, so let's just hang tight for a few 
minutes and he'll be right back. Thank you very much.
    [Recess.]
    Senator Craig [presiding]. Well, thank you, gentlemen, for 
your patience. Let's move on here. I've got several questions.
    Joel, this question is of you, and it relates to S. 100. I 
mentioned in my opening comments some of our frustration about 
the timeliness of the ability of the Forest Service to move on 
certain exchanges. I'm beginning to feel that the Forest 
Service administrative land exchange process is completely 
dysfunctional. It appears after literally years and years of 
effort on the part of some where there appears to be no 
difficulty or at least limited difficulty, we find we're having 
to legislate relatively minor or sometimes quite small 
exchanges.
    Would you have your staff prepare a spreadsheet on all land 
exchanges over the last decade? Please rank them by the number 
of acres being exchanged and provide a column that shows how 
many years each exchange has been in the works. So starting 
from let's say the time when the Forest Service or the private 
party first suggested the exchange. And finally, please show 
which exchanges were completed through the administrative 
process and which exchanges had to be legislated.
    I may be way out in left field, but it seems like we're 
legislating more and more of these exchanges. We gave the 
Forest Service the authority to process these in a timely 
fashion. So if you could do that for us, I think it would be 
worth our time, and then working with you all to see how we 
might effectuate more streamlined processes if need be.
    Dealing with S. 235 and H.R. 816, Federal lands in Carson 
City and Douglas County, Nevada, I know the administration has 
expressed concern about the amount of money generated by the 
sale of some of the properties from the Southern Nevada/Clark 
County bill we passed a couple of years ago. I suspect some of 
these properties may also generate significant sums, those in 
the current legislation.
    As in the past, you have testified that the administration 
has some concerns with the receipt-sharing formula in the bill. 
I also note that the agency is suggesting in its budget request 
for 2006 it be allowed to dispose of administrative sites and 
keep the revenues to help pay for building maintenance and 
construction.
    Tell me why we shouldn't require the revenues from these 
conveyances and others that you will be proposing be counted as 
gross receipts to be shared with the counties or to help pay 
for the county payments under the Craig-Wyden School Bill.
    Mr. Holtrip. Well, first of all I want to be clear in 
saying that we recognize the importance of education and the 
school bill and recognize that there are--in tight fiscal times 
we need to look at a full array of funding needs.
    The administration's 2006 budget and beyond reflects a 
reduction in the overall allocation for our facilities 
maintenance program. The Department's 2006 Forest Service 
facility realignment and enhancement legislative proposal would 
provide for greater efficiencies in the management and 
realignment of administrative sites on the National Forest 
system, and receipts derived from the conveyance of those sites 
and facilities would be deposited in the Sisk Act Fund and 
remain available to the Secretary for administrative site 
purposes.
    If we do not receive the proceeds from the conveyance of 
properties such as this, our ability to acquire, to improve, to 
reduce the Forest Service's deferred maintenance backlog would 
be seriously affected.
    Senator Craig. S. 404, to make a technical correction 
relating to the land conveyance authority under Public Law 108-
67. I see from the map you have provided for the committee that 
the lands to be conveyed to the Washoe Tribe have shifted 
southward, and now much more of Forest Service 15 north 67 will 
fall within the conveyance.
    In the original bill, as I recall, the Forest Service 
retained a right-of-way for the road. Will you continue to 
retain the right-of-way on the Forest Service road 15N67?
    Mr. Holtrip. Yes, we would. The conveyance under section 2 
of the Public Law 108-67 was made subject to a reservation to 
the United States for non-exclusive easement for both public 
and administrative access.
    Senator Craig. Okay. Can you tell us why the Forest Service 
or the Washoe Tribe needs to shift the conveyance to the south?
    Mr. Holtrip. Well, I can only speak for the Forest Service 
in saying that we support the goal of providing meaningful 
access to the area for the Washoe Tribe. We're committed to 
working with the tribe regarding their land acquisition goals 
and recognize the shift of the conveyance to the south will 
pose challenges to the Lake Tahoe Basin Management Unit in 
managing public access.
    One of the things that happens with this shift to the south 
is a sandy beach area that is used by many members of the 
public, all but 90 feet of that would be conveyed to the Washoe 
Tribe, and that would create some public access issues.
    It's my understanding that today the acting forest 
supervisor of the Lake Tahoe Basin Management Unit and the 
Washoe Tribe are out on the property walking the property 
trying to understand each other's needs and concerns on those 
types of access issues.
    Senator Craig. You mean we may have to shift the 
description a little more after today's walk-around?
    Mr. Holtrip. Or there may be other alternatives that will 
accomplish some of the access concerns.
    Senator Craig. I see. Okay. The reason I was concerned 
about right-of-way, I think it's called the Newhall House, 
there's a property, the road access house has to be gained 
through this conveyance. And you're comfortable that the right-
of-way you retain will allow that?
    Mr. Holtrip. That's my understanding, yes.
    Senator Craig. Okay. S. 741, to provide for the disposal of 
certain Forest Service administrative sites in Oregon and other 
purposes, if you were still selling timber in Oregon like you 
did before the Clinton Northwest Forest Plan was finalized, 
would you still have a need for the administrative sites that 
you will be disposing of in S. 741?
    Mr. Holtrip. Well, you know, our past infrastructure needs 
were reflective of the access and the resource needs then. The 
administrative site needs of the Forest Service in Oregon have 
changed over the past decade. Each of the national forests 
involved, the Rogue River, Siskiyou, Siuslaw, Umpqua, and 
Willamette, have determined that their administrative site 
needs are through--what those needs are through their facility 
master planning effort. And these administrative site needs are 
now reflective of their current program of work, both now and 
what they're foreseeing into the future.
    Senator Craig. The Clinton Northwest Forest Plan was 
finalized, I believe, in 1994. Why has it taken the Forest 
Service a decade to decide to dispose of these properties?
    Mr. Holtrip. Well, it was in the mid-1990's that we 
recognized the need to realign our facilities commensurate with 
our program of work. In order to make the realignment changes, 
we updated our facility master planning process, the process 
that we go through for that facility master planning, in 1995.
    It's taken us time to standardize and implement that 
process across the entire National Forest Service system, and 
that process was finalized in 2003. Over the past several 
years, we have been using the pilot conveyance authority and 
other authorities available to us in order to dispose of 
facilities.
    For example, as my testimony indicated, seven of the tracts 
identified in S. 741 have already been sold under the pilot 
conveyance authority.
    Senator Craig. The reason, Joel, I mention this is I assume 
that in that decade of time that it took you all to create a 
mechanism and make a decision, these sites were sustained and 
maintained.
    Mr. Holtrip. To varying degrees, that's correct.
    Senator Craig. Right. And that costs money.
    Mr. Holtrip. Yes.
    Senator Craig. And here today you are seeking to sell land 
for the purpose of gaining money so that you can sustain sites 
and sustain operations. I'm really getting quite serious about 
the fact that it takes a decade for you all to make a decision. 
And your inability to make decisions costs money. And in your 
role, I would hope that you could look at mechanisms or come to 
us if you've got impediments within the law.
    Obviously, we want property fairly handled, fair values 
brought, and all of that, but the time it takes and the money 
it takes to process these properties are sometimes more 
valuable than the properties themselves. And while that is 
probably less the case today than ever before, it's still a 
reality, and I'm suggesting that time has value, except in 
government.
    If this were a private company making that decision in 
1994, they would have been sold by 1996, I would guess. I know 
we're not private companies in private business, but we ought 
to try to grasp a little of the essence of getting things done 
in a timely fashion when the determination is made that they're 
not needed anymore. I grow very frustrated by those kinds of 
processes.
    Mr. Holtrip. Could I just say that I agree? I know that our 
chief also agrees with concerns over how long it sometimes 
takes for us to go through some of these types of processes. 
Referring back to your request on the administrative land 
exchanges, as another one of those examples that you're talking 
about, I believe that we'll be more than happy to provide the--
--
    Senator Craig. Well, I think it will give us a good 
perspective.
    Mr. Holtrip [continuing]. Information that you're 
providing. And it's our intention of looking at that, because 
we are aware of the perception that our administrative land 
exchanges sometimes take longer than we want them to. And we 
believe that providing you that information will also provide 
us the opportunity to look at what are some of the things that 
we need to do.
    Senator Craig. Super. Thank you very much. Tom, thank you 
for your testimony. S. 761, to rename to Snake River Birds of 
Prey Area to the Morley Nelson Snake River Birds of Prey 
National Conservation Area in honor of Morley is of great value 
to the State of Idaho--and we believe to the Nation--as it 
relates to recognizing Mr. Nelson.
    I assume that when this legislation is signed--well, first 
of all, I know you chose not to comment about it. So I have to 
assume that when this legislation is signed into law, the BLM 
will schedule a renaming ceremony at the conservation area to 
celebrate Morley's accomplishments. Can I count on that?
    Mr. Lonnie. You can absolutely count on it, Mr. Senator. 
We'd be delighted to do that.
    Senator Craig. Great. Thank you very much. H.R. 486, to 
provide a land exchange involving private land, the Bureau of 
Land Management, in the vicinity of Holloman Air Force Base, 
New Mexico, for the purpose of removing private land from the 
required safety zone surrounding munitions storage bunkers at 
Holloman Air Force Base. I spent a little more time looking at 
this because I can't quite figure out what this is all about.
    I'm wondering why the BLM has to foot the bill for this 
exchange given that Holloman Air Force Base and the private 
landowner seem to be the ones that benefit from the exchange. 
Would you object if we force the Department of Defense and the 
private land owner to pay for the cost of the exchange?
    Mr. Lonnie. As we testified, Senator, generally the 
proponent of a land exchange is responsible for paying for the 
appraisal costs. In H.R. 486, BLM-managed lands are offered as 
a solution to a problem between Holloman Air Force Base and the 
Rabons. The public interest would be served if your suggestion 
is adopted.
    Senator Craig. Help me understand why the Federal 
Government is giving up 320 acres in exchange for only 241 
acres.
    Mr. Lonnie. We testified that the provision in H.R. 486 
waiving the 25 percent limitation on cash equalization payments 
is inconsistent with section 206 process in FLPMA. Senator, 
when we previously had testified on S. 4808, one of the things 
that we had identified, and we applaud the sponsor for 
incorporating it here, is its use of the section 206 process, 
because that will assure that we use uniform appraisal 
standards, so equal value and fair market value will be 
captured. But we do have concerns associated with the waiving 
of the 25 percent equalization payment money.
    Senator Craig. Okay. I also note that several southeastern 
New Mexico environmental groups claim the BLM determined that 
the BLM land in question was needed for the protection of the 
Sacramento Mountain prickly poppy, a Federal endangered species 
contained within the boundaries of the adjoining Sacramento 
Escarpment area of critical environmental concern. To your 
knowledge, does the Sacramento Mountain prickly poppy occur on 
the BLM lands to be traded in this exchange?
    Mr. Lonnie. No, they do not. The special status species 
occurs within the ACEC--area of critical environmental 
concern--but not within the 320-acre parcel located outside the 
ACEC.
    Senator Craig. Did the agency determine that these 320 
acres of the BLM land were needed for the protection of the 
poppy?
    Mr. Lonnie. No, there were--there are no large-scale 
permitted uses in the 320-acre parcel, but a variety of casual 
and day-use activities occur. The 320-acre parcel serves to 
absorb land use impacts from casual and day-use activities so 
that these uses do not disturb special status plant and animal 
species in the neighboring ACEC.
    Senator Craig. Well, my last thought here in looking at the 
map, and that's all I know about this, is that by just looking 
at the map, it appears that the lands the Government is giving 
up should be more valuable than what they are getting. I think 
you've commented on that as it relates to the appraisal 
process. Do you have any additional comment or care to comment 
on it?
    Mr. Lonnie. Not at this time, Senator, but we would be more 
than happy to work with the sponsor and the committee on any 
changes that we suggested in our testimony.
    Senator Craig. Okay. Well, gentlemen, thank you very much. 
We've gotten you out of here slightly before 3 o'clock. Joel, I 
think you had a commitment that was going to cause you to exit 
at least by then. We appreciate your attentiveness to these 
issues, and we'll be back to you for any corrections we feel 
are necessary in working with you to move these pieces of 
legislation forward.
    Thank you very much, and the subcommittee will stand 
adjourned.
    [Whereupon, at 2:55 p.m., the hearing was adjourned.]
    [The following statement was received for the record:]
   Statement of Christopher Krupp, Staff Attorney, the Western Land 
                     Exchange Project, Seattle, WA
                      testimony regarding h.r. 486
    My name is Christopher Krupp, and I am the staff attorney of the 
Western Land Exchange Project, a non-profit organization monitoring 
federal land sales and exchanges and working for long-term substantive 
reform in federal land disposal policy. I submit this testimony to urge 
you to oppose H.R. 486, a bill to provide for a land exchange involving 
private land and Bureau of Land Management (BLM) land in the vicinity 
of Holloman Air Force Base, New Mexico.
    H.R. 486 circumvents two of our nation's important environmental 
and public lands laws, namely the National Environmental Policy Act 
(NEPA) and the Federal Lands Policy and Management Act (FLPMA). NEPA 
would normally require the Bureau of Land Management to study the 
environmental impacts of the proposed land exchange, develop a 
reasonable range of alternatives to the proposal, and provide the 
public with one or more opportunities to comment on the proposal. There 
are very good reasons why implementing each of those NEPA elements 
would benefit the land trade proposal in H.R. 486. First, studying the 
environmental impacts would help determine the potential harm of 
trading away 320 acres of buffer zone that protects the Sacramento 
Mountains prickly poppy, a species in documented decline and known only 
to exist in Otero County, New Mexico. Second, by developing a 
reasonable range of alternatives, the BLM may well identify means of 
acquiring the private land adjacent to the Air Force base without the 
public giving up the buffer lands identified for trade in the bill. 
Finally, the public comment requirements in NEPA ensure that the public 
has an opportunity to weigh in on the proposal after it has learned of 
the impacts and alternatives. This is usually not possible with 
legislated land exchanges because such detailed information cannot be 
provided in the text of land exchange bills.
    H.R. 486 averts the FLPMA mandate that the difference in the 
appraised value of federal and non-federal lands in a land exchange not 
exceed 25 percent, with the difference to be paid in cash. H.R. 486 
specifically exempts the land trade from this requirement, so if the 
federal land has an appraised value twice that of the private land 
adjacent to Holloman AFB, the private landowner can simply pay the 
difference in cash rather than accepting a smaller amount of BLM land. 
There is no valid reason for this exemption from FLPMA; it simply 
guarantees the private party that it can acquire all the land it is 
seeking, whatever the ultimate appraised values.
    FLPMA also requires that all BLM proposals conform to the agency's 
relevant Resource Management Plan (RMP). Prior to H.R. 486's 
introduction, BLM, in consultation with the U.S. Fish and Wildlife 
Service (FWS), determined that the 320 acres of federal land must be 
retained in public ownership because of the land's importance in 
protecting the prickly poppy on adjacent public land. The BLM would 
therefore not make the trade identified in this bill, because it would 
violate the RMP covering the land at issue. H.R. 486 circumvents the 
agencies' informed decision regarding this land in order to reward a 
single constituent.
    It is important to note that the eminent domain/condemnation 
proceedings that were first considered to acquire the private lands for 
the Holloman safety zone would justly compensate the private party. In 
fact, the private lands would be appraised for the same market value 
under condemnation proceedings or H.R. 486. The only notable difference 
is that condemnation proceedings would not provide a way for the 
private party to acquire land that the BLM and FWS believe serves an 
important public function. After condemnation proceedings the private 
party would, of course, be able to acquire other public land in the 
area that the BLM has identified for disposal in the relevant RMP.
    In summary, I urge the Subcommittee on Public Lands and Forests to 
oppose H.R. 486. The bill circumvents longstanding law enacted to 
inform the public and protect the public interest, and trades away land 
that the BLM has determined is essential for protecting a plant found 
in only one county in the United States. A better solution to the 
safety zone problem at Holloman is for the Department of Defense to 
acquire the private land by the usual condemnation/eminent domain 
proceedings. Thank you for your consideration.

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
           Office of Congressional and Legislative Affairs,
                                     Washington, DC, June 20, 2005.
Hon. Larry E. Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are responses prepared by the Bureau of 
Land Management to questions submitted following the May 11, 2005, 
hearing on S. 100, the Pitkin County Land Exchange Act of 2005, and 
H.R. 486, land exchange near Holloman Air Force Base, New Mexico.
    Thank you for the opportunity to provide this material to the 
Subcommittee. Sincerely,
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
                         Supplemental Questions
          s. 100--the pitkin county land exchange act of 2005
    Question 1. Please provide as estimate of the value of the parcel 
of BLM land to be exchanged pursuant to S. 100.
    Answer. The BLM has not undertaken an appraisal of the parcel 
identified for exchange in S. 100. In addition, we do not have 
appraisals on any comparable parcels in the area. However, a very rough 
estimate of the value of the 40-acre parcel would be between $500,000 
and $1,500,000.
    h.r. 486--land exchange near holloman air force base, new mexico
    Question 1. As you noted in your testimony, the BLM lands to be 
exchanged are designated for retention. At the subcommittee hearing you 
testified that the BLM could support the exchange, although you did not 
recommend alternate lands or ask for any special restrictions on the 
lands to be exchanged. Has the BLM's position changed on the value of 
retaining the lands to be exchanged under this bill?
    Answer. The BLM's position on the value of retaining the 320-acre 
parcel identified in H.R. 486 has not changed; the parcel is identified 
for retention in the BLM's ``Otero County Areas of Critical 
Environmental Concern/White Sands Resource Management Plan Amendment,'' 
(RMPA) of December 19, 1997.
    This dispute is between the Rabons and the military. While we 
believe that the public interest would be better served if the Rabons 
and the military were able to agree on a price at which the military 
could purchase the 241 acres from the Rabons, the BLM could support the 
use of public lands as a means to resolve this dispute, provided the 
BLM is reimbursed for all its costs associated with this exchange.
    The BLM supports land exchanges of equal value, and the Rabons' 
initial land exchange proposal of December 23, 2003, (rangeland for 
rangeland) appeared to meet this standard. However, in September of 
2004, Representative Pearce indicated to the Department that the Rabons 
were no longer interested in acquiring the inholdings identified in 
their proposal, but instead would convey their 241 acres to the 
military in exchange for acquiring a 320-acre parcel of public land 
located adjacent to the Sacramento Escarpment ACEC. These are the lands 
identified in H.R. 486.
    Thus, the exchange was transformed from one of approximately equal 
land values to one with significantly disparate land values. Our 
position on H.R. 486, that we could support the proposed exchange if 
amendments were adopted, reflects our intent that the public receive 
full value for the 320-acre parcel and the BLM is reimbursed for costs 
if Congress directs that this parcel be conveyed into private 
ownership.
    Question 2. Your testimony references an earlier proposal to 
exchange the lands for ``BLM inholdings'' on the Rabon ranch. Were 
those lands designated for disposal? Would the BLM support an exchange 
for those lands? If both parties were to agree to that exchange, could 
it be handled administratively without any Congressional intervention?
    Answer. The BLM inholdings on the Rabons' ranch were identified for 
disposal in the BLM's 1986 White Sands Resource Management Plan (the 
disposal designation was not affected by the 1997 RMPA).
    The BLM could support an exchange of these lands as part of a 
comprehensive solution, described in more detail below, involving the 
Rabons and the Corps (or other Defense Department entity acting on 
behalf of Holloman AFB). Such a comprehensive solution could be handled 
administratively without congressional intervention, and might be 
structured as follows:

    Part 1: Land Exchange between the Rabons and the BLM under Sec. 206 
of FLPMA. The BLM's authorization to do land exchanges is provided in 
Section 206 of FLPMA. The Rabons convey their 241 acres to the BLM, in 
exchange for BLM lands of equal value selected from the ``inholdings'' 
that were identified by the Rabons in their December 2003 proposal and 
reflected in H.R. 4808 as introduced.
    Part 2: DOD withdrawal application under Sec. 204(a) of FLPMA. The 
Corps (or other Defense Department entity acting on behalf of Holloman 
AFB) files with the Secretary of the Interior an application to 
withdraw the 241 acres of newly acquired federal land for the exclusive 
use of Holloman AFB.

    Question 3. You mentioned in your testimony that the private lands 
covered by the bill were formerly under a restrictive easement. Please 
provide the Committee with the history of those easements, their 
current status (including why they are no longer in effect), and the 
current status of any neighboring lands and whether they currently have 
or may require easements in place.
    Answer. The U.S. Army Corps of Engineers, on behalf of Holloman 
AFB, maintains the full record of easements associated with the 
installation. However, our records show that no restrictive easements 
currently exist for the 241 acres.
    Question 4. In November, 2003, the Department of the Interior 
testified before the Committee in favor of a bill (S. 1209 in the 108th 
Congress) to authorize a legislative taking of certain lands in 
Washington County, Utah. Under that legislation, the value of the lands 
acquired by the United States would be determined by a Federal court. 
Would the Department similarly favor such a solution in this case? Do 
you have any information that would guide the Committee as to the 
likely value of the Rabon lands?
    Answer. If legislation providing for a legislative taking of the 
241 acres of private land located within the munitions storage security 
zone at Holloman AFB were introduced, the Department of the Interior 
would defer to the Department of Defense concerning a position on such 
a bill. Such a solution would return resolution of this issue to the 
two principal parties: the Rabons and the military.
    The BLM was not a party to the efforts by the U.S. Army Corps of 
Engineers, on behalf of Holloman AFB, to acquire the 241 acres from the 
Rabons. However, it is our understanding that the Corps prepared an 
appraisal of the 241 acres. On August 3, 1999, the Corps sent the 
Rabons a letter offering $20,000 to purchase a restrictive easement; 
the Rabons rejected this offer.
    Question 5. Your testimony referred to the Department of the 
Interior's significant concerns with prior legislation concerning this 
issue (H.R. 4808 in the 108th Congress). Did the Department have any 
concern with the specific lands to be exchanged under that bill? What 
would the Department's position be if H.R. 486 is amended to authorize 
the exchange of lands identified in H.R. 4808?
    Answer. Our concern with the specific lands identified for exchange 
in H.R. 4808 as introduced on July 9, 2004, was that the lands to be 
exchanged be of equal value or that the bill allow for an equal value 
exchange. The Department would support an amendment to H.R. 486 which 
provided for a legislated exchange of lands as identified in H.R. 4808. 
Such an amendment would greatly reduce, although not eliminate, the 
disparity in values of the lands to be exchanged. We urge the Committee 
to provide for equal values in a legislated land exchange, for example, 
by reducing the number of acres the BLM is to convey to the Rabons 
until the land values are equalized. Alternatively, if Congress directs 
the BLM to sell to the Rabons the lands identified in H.R. 4808 as 
introduced, we believe the public should receive fair market value and 
the BLM be reimbursed for its costs associated with the sale.
    Question 6. If H.R. 486 is enacted without amendment, how would the 
BLM manage the parcel it would acquire?
    Answer. The 241 acres were identified by Holloman AFB as essential 
to its munitions storage security zone. The land would be acquired by 
the Federal government for that purpose. As such, the acquired land 
would not be available for multiple use management under Federal Land 
Policy and Management Act. The Secretary of the Interior would issue a 
Public Land Order withdrawing the acquired land and adding it to the 
military lands withdrawn under Public Land Order Number 833.
    Question 7. You expressed concern with the provision of the bill 
that waives the 25 percent limitation in section 206(b) of the Federal 
Land Policy and Management Act of 1976 (FLPMA); if that provision were 
removed, how would the exchange be completed, assuming the values of 
the two parcels differ by more than 25 percent?
    Answer. If H.R. 486 were amended to eliminate the waiver of Section 
206(b) of FLPMA, the exchange would proceed in accordance with Section 
206 of FLPMA. Specifically, an appraiser would prepare a preliminary 
estimate of the values of the Rabons' 241 acres and the 320-acre parcel 
of public land in order to determine a gross estimate of the disparity 
in values. Based on this preliminary estimate, the number of acres of 
public land to be conveyed out of Federal ownership would be adjusted 
(reduced) to the point that the land values are approximately equal. A 
final appraisal would be prepared on the adjusted acreage.
                     Question From Senator Bingaman
    Question 1. I would like to follow up on previous questions I 
submitted concerning the proposed land exchange near Holloman Air Force 
Base. To better understand the history of the land exchange proposed in 
H.R. 486, I would like you to include in your response any information 
(such as correspondence among the parties, any valuations of the 
various lands considered, or information on alternative proposals 
considered) that may give further explanation of your answers. Since 
the Army Corps of Engineers was the original negotiator tasked with 
resolving the safety zone issue, please also provide any documentation 
you may have related to their efforts to arrive at a solution.
    Answer. The informated requested in the above question has been 
retained in subcommittee files.

                                  <all>      



</pre></body></html>
